OFFICE OF INSPECTOR GENERAL


AUDIT OF THE INTER-AMERICAN
FOUNDATION'S FINANCIAL
STATEMENTS FOR FISCAL YEARS
2011 AND 2010

AUDIT REPORT NO. O-IAF-12-003-C
NOVEMBER 14, 2011




WASHINGTON, D.C.
Office of Inspector General

                                                                       NOV 1 4 2011
MEMORANDUM

TO:                  IAF President and CEO, Robert N. Kaplan

FROM:                AIG/A, Timothy E. Cox lsi

SUBJECT:             Audit of the Inter-American Foundation's Financial Statements for Fiscal Years
                     2011 and 2010 (Audit Report No. 0-IAF-12-003-C)

With this memorandum, the Office of Inspector General (OIG) transmits the audit report
prepared by the certified public accounting firm of Brown & Company, CPAs, PLLC, on the
financial statements as of September 30, 2011 and 2010, of the Inter-American Foundation
(IAF). The OIG contracted with this independent auditor to audit the financial statements.

The independent auditor expressed an unqualified opinion on IAF's fiscal year 2011 audited
financial statements and notes. The report states that the financial statements presented fairly,
in all material respects, IAF's financial position, the net cost of operations, the changes in net
position, and budgetary resources for the years ended September 30, 2011 and 2010, in
conformity with accounting principles generally accepted in the United States of America.

The report contains no material weaknesses or Significant deficiencies in IAF's internal control
over financial reporting and no instances of noncompliance with selected provisions of
applicable laws and regulations.

We reviewed the audit report and found it to be in accordance with auditing standards generally
accepted in the United States; generally accepted government auditing standards issues by the
Comptroller General of the United States; and the Office of Management and Budget Bulletin
07-04, Audit Requirements for the Federal Financial Statements, as amended.

In connection with our contract, we reviewed the independent auditor's related audit
documentation. Our review, which is different from an audit; in accordance with the auditing
standards discussed above, our review was not intended to enable us to express, and we do
not express, an opinion on IAF's financial statements. Also, we did not express conclusions on
the effectiveness of IAF's internal control or on IAF's compliance with other laws and
regulations.

The independent auditor was responsible for the attached auditor's report dated November 8,
2011 and the conclusions therein. Our review disclosed no instances where the independent
auditor did not comply, in all material respects, with the auditing standards discussed above.


U.S. Agency for Intemational Development
1300 Pennsylvania Avenue, NVV
Washington, DC 20523
YfflW.usaid.gov/oig
                                             -2-

The Office of Inspector General appreciates the cooperation and the courtesies extended to our
staff and the staff of Brown & Company, CPAs, PLLC, during the audit. If you have questions
concerning this report, please contact Rohit Chowbay at (202) 712-1317.
         INTER-AMERICAN FOUNDATION




FINANCIAL STATEMENTS AND INDEPENDENT AUDITOR'S REPORT

      For the Fiscal Years Ended September 30, 2011 And 2010
                         INTER-AMERICAN FOUNDATION
           FINANCIAL STATEMENTS AND INDEPENDENT AUDITOR'S REPORT
             FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2011 AND 2010



TABLE OF CONTENTS


AGENCY HEAD MESSAGE…………………………………………………………………………………… 3


PERFORMANCE SECTION…………………………………………………………………………………… 5


MANAGEMENT DISCUSSION AND ANALYSIS…………………………………………………………… 12


FINANCIAL SECTION

   CFO LETTER……………………………………………………………………………………………… 24

   INDEPENDENT AUDITOR'S REPORT ON THE FINANCIAL STATEMENTS……………………… 26

   INDEPENDENT AUDITOR'S REPORT ON INTERNAL CONTROL……………………………………28

   INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS… 29

   BALANCE SHEET…………………………………………………………………………………………30

   STATEMENT OF NET COST………………………………………………………………………………31

   STATEMENT OF CHANGES IN NET POSITION……………………………………………………… 32

   STATEMENT OF BUDGETARY RESOURCES………………………………………………………… 33

   NOTES TO THE FINANCIAL STATEMENTS……………………………………………………………34
                  Inter-American Foundation
                                                             An Independent Agency of the U.S. Government



                PERFORMANCE AND ACCOUNTABILITY REPORT (PAR)


Message from the President

The Inter-American Foundation (IAF), an independent foreign assistance agency of the United
States government, provides grants to grassroots organizations in Latin America and the
Caribbean. Created in 1969, the IAF responds to innovative, participatory and sustainable self-
help development projects proposed by grassroots groups and organizations that support them. It
also encourages partnerships among community organizations, businesses and local
governments directed at improving the quality of life for poor people and strengthening
democratic practices. To contribute to a better understanding of the development process, the
IAF shares its experiences and the lessons it has learned.

The IAF is governed by a nine-person board of directors appointed by the President of the
United States and confirmed by the U.S. Senate. Six members are drawn from the private sector
and three from the public sector. The board is assisted by an advisory council. A president,
appointed by the board, serves as the Inter-American Foundation’s chief executive officer,
managing a staff of 47 employees based in Arlington, Virginia. The IAF is organized into four
offices; Executive, which houses the Office of the President and General Counsel; External and
Governmental Affairs; Operations, which manages Evaluation, Financial Management, Human
Resources and Information Management; and the Program Office, which manages the grant
program. An organization chart can be found on page nine.

Despite recent positive macroeconomic performance in some countries, poverty, glaring inequality
and social exclusion persist and are at the root of the most serious challenges the United States faces
in our relations with the countries of the region. In this context, and consistent with the Presidential
Directive on Global Development, the IAF contributes to U.S. foreign policy objectives by
contributing its specialized expertise, experience and programmatic focus on community
development so that poor and marginalized groups have an opportunity to participate in local
economic growth and engage in civic life. The IAF coordinates with other U.S. government
agencies and levers private contributions, including from local partners and community
beneficiaries of the IAF’s assistance.

The IAF is effective for the following reasons:
   • It is responsive to the challenges, priorities and solutions emerging directly from organized
      communities, who demonstrate their ownership and responsibility towards improving their
      circumstances.
   • It is results-oriented, investing modest grants to support projects that yield high returns and
      help communities manage risk.




                                                   3
   •   It insists that communities show leadership and that they commit their own resources to
       ensure that projects are effective and sustainable.
   •   It is efficient and operates with minimal bureaucracy.
   •   It has the flexibility to adjust quickly to changing conditions and continue engagement at the
       community level even when bilateral relations are strained.

In 2011 the IAF invested in 61 new grants and 33 supplemental grants to organizations in 17
countries. Many of these grants directly benefit African descendants, indigenous communities,
persons with disabilities and disadvantaged women and youth, providing opportunities for these
historically excluded groups to participate more fully in economic and civic life. Application of the
Grassroots Development Framework (GDF), the IAF’s analytical tool for ensuring that investments
contribute meaningfully to real community development results, allows the agency to choose
higher-impact projects and assess how its investments yield long-term development benefits that
extend far beyond the grantees’ immediate objectives.

Effective community development requires communities themselves to play a protagonist role. All
IAF grantees are required to contribute to their projects in cash or in kind, as the IAF’s experience
shows that community groups are more likely to succeed if they have a stake in the outcome. The
IAF also expects grantees to mobilize additional resources and collaborate with their local and
central governments, local businesses and other organizations so that progress continues after IAF
funding ceases. As a result of these efforts, counterpart resources committed in 2011 totaled $19.5
million, more than matching the IAF’s investment of $14.9 million.

Nearly ten years ago, the IAF created the RedEAmérica network of corporate foundations in the
region to apply this leverage to a larger number of partners. Today, that network has grown to 68
dues-paying members supported by over 360 corporations in 11 countries. When the IAF invests in
a community group with a RedEAmérica member, those partners match or double the IAF’s
contribution. As important as the funds co-invested through this initiative is the fact that
RedEAmérica members or their parent corporations continue to invest in grassroots development on
their own, applying tools created with the IAF to select projects and track results. The time is ripe
for the IAF to expand its work with RedEAmérica and other private partners and increase the
leverage of its appropriation, raising more private sector resources for sustainable community
development.

The Presidential Directive on Global Development calls for coordination among U.S. agencies. The
IAF has taken concrete steps in FY11 to do so and will increase efforts in FY12 and beyond. The
IAF’s specialized expertise and assistance complements the efforts of other agencies and increases
the return on the total U.S. investment, ensuring that more poor and marginalized communities will
benefit. The IAF also collaborates with the U.S. Department of State and others to advance
important foreign-policy priorities through the Partnership for Growth, and broader regional
initiatives such as the Inter-American Social Protection Network, and the Joint Action Plan to
Eliminate Racial and Ethnic Discrimination and Promote Equity.




                                                  4
                          ANNUAL PERFORMANCE REPORT (APR)

                Accomplishments of the Annual Performance Measures for FY 2011

In fiscal 2011 the Inter-American Foundation received an appropriation of $22,499,000 minus a
rescission of $44,998 for a total of $22,454,002 for program and program support activities, which
was supplemented by $4,615,000 from the Social Progress Trust Fund for development grants and
by $100,000 in carry-over funds. The total budget was $27,169,002.

Goal One. Fund effective development projects that improve the quality of life as evidenced by
measurable indicators.
Performance Measure: Grants funded in the fiscal year that target a better quality of life for
beneficiaries as evidenced by measurable indicators.
FY-08        FY-09        FY-10       FY-11       FY-11        FY-11 Rating        FY-12       FY-13
Results      Results      Results     Target      Results                          Target      Target
101          118          121         105         94           Under target        103         100
Data Source: IAF official budget records, annual reports and submissions to OMB and Congress.

The IAF responded to the best proposals it received in fiscal 2011 by awarding 61 new grants to
grassroots and nongovernmental organizations. The IAF also amended its awards to 33
organizations funded in prior years. The 94 grants and supplements went to Latin American and
Caribbean organizations based in 17 countries in the region. The IAF did not meet its target of 105
funding actions because it had a shortfall of $2.7 million in grant funds between FY-10 and FY-11.

New grantees include organizations that will provide training that makes agriculture more
productive and less damaging to the environment, resulting in a more reliable and diverse food
supply and better income. Several organizations are working to improve access to clean water and
sanitation, thereby reducing exposure to water-borne illnesses and improving the quality of the lives
of the thousands of women who traditionally carry water to their homes. Some offer educational
opportunities and legal services. Others are developing ecotourism and community tourism,
traditional craft production and food-processing as sources of income. Credit programs, training in
business development, supportive networks and mentoring will benefit entrepreneurs. Communities
will have access to subgrant funds supporting their enterprises and other development initiatives.
Two grantees will reach Colombians displaced by armed conflict and Haitian victims of the January
2010 earthquake.

Goal One. Fund effective development projects that improve the quality of life as evidenced by
measurable indicators.
Performance Measure: Percentage of grantees whose funding ends in the prior fiscal year that met
or exceeded outcome goals specified for each project.
FY-08       FY-09        FY-10       FY-11        FY-11        FY-11         FY-12       FY-13
Results     Results      Results     Target       Results      Rating        Target      Target
69%         73%          86%         80%          82%          Above         80%         80%
                                                               target
Data Source: IAF official budget records, annual reports and submissions to OMB and Congress.


                                                  5
Of 28 grantees whose funding expired in fiscal 2010, 82 percent met or exceeded their goals. Their
accomplishments include, inter alia, expanding the reach of their credit programs, including those
extending microloans; providing farmers technical assistance and training toward better harvests of
fruits, vegetables, basic grains and cacao, increased production of small livestock and the
development of a more reliable food supply; launching microenterprises selling fish and shrimp,
honey and cacao; offering assistance toward more effective marketing; addressing domestic
violence and the need for legal services; creating jobs in agriculture; and providing greater access to
water by building reservoirs that community residents maintain.

Goal Two: Stimulate and encourage broader participation in the development process and broader
engagement in democratic practices.
Performance Measure: Grants awarded to groups and organizations of the marginalized and
disenfranchised, including African descendants, indigenous peoples, persons with disabilities,
women and young people.
FY-08       FY-09        FY-10        FY-11       FY-11        FY-11         FY-12     FY-13
Results     Results      Results      Target      Results      Rating        Target    Target
59          81           79           70          70           On target     72        60
Data Source: IAF official budget records, annual reports and submissions to OMB and Congress.

African descendants, indigenous peoples, persons with disabilities, women and young people are
expected to benefit from 32 new and ten supplemental grants to various organizations in Latin
America and the Caribbean.
   • Thirteen new grants or supplemental awards, valued at $2.2 million, were awarded to
       organizations serving African descendants in Brazil, Colombia, the Dominican Republic,
       Ecuador, Haiti and Peru. The grantees will offer training in enterprise development, new
       agricultural technologies and responsible farming methods that protect the resource base,
       and will provide educational opportunities for girls and young women at risk.
   • The IAF’s long history of support for indigenous peoples continues with new and
       supplemental awards, valued at $3.9 million, that are reaching 26 organizations in Bolivia,
       Colombia, El Salvador, Guatemala, Mexico, Panama and Peru Grantees plan to improve
       agricultural production, further enterprises related to crafts and tourism, expand access to
       clean water, protect natural resources and conform possession and ownership of land to
       traditional practice.
   • The IAF funded 15 new or supplemental awards, valued at $2.3 million, to organizations
       emphasizing young people, including in the leadership of initiatives to generate income or
       employment
   • The IAF awarded 15 new and supplemental grants, valued at $1.3 million, to organizations
       that specifically support artisans, farmers, mineworkers and other women as they, inter alia,
       increase their productivity, expand small businesses and work to protect health and the
       environment
   • A supplemental grant awarded to Fundación Saraki will be used to train 1,300
       representatives of disability-rights organizations working in a coalition to improve
       opportunities and conditions for the 100,000 Paraguayans with disabilities that they
       represent.



                                                   6
Goal Three: Draw more resources into grassroots development.
Performance Measure: Total verified dollar amount of in-kind and cash resources contributed or
mobilized by grantees to further their efforts.
FY-08       FY-09        FY-10         FY-11      FY-11        FY-11 Rating   FY-12     FY-13
Results     Results      Results       Target     Results                     Target    Target
$1.1m       $5.4m        $3.6m         $3.5 m     $3.7m        Above target   $3m       $3m
Data Source: IAF official budget records, annual reports and submissions to OMB and Congress.

The most recent information available is from fiscal 2010. According to verified figures, grantees
raised an additional $3.7 million, $2.3 million in cash and $1.4 million in kind, to invest toward the
sustainability of their projects and organizations. This amount is beyond the required counterpart
commitments, which in aggregate more than match the IAF’s investment. Counterpart resources
committed in 2011 totaled $19.5 million, more than matching the IAF’s investment of $14.9
million. Over its 40 years, the IAF’s investment of $700 million in grant funds has generated
counterpart resources worth $1 billion.

Goal Four: Further the understanding and effectiveness of grassroots development by
disseminating the IAF’s experiences and approach and funding research.
Performance Measure: Funded fellowships supporting doctoral research on related topics that adds
to the body of knowledge related to grassroots development.
FY-08        FY-09       FY-10        FY-11       FY-11        FY-11         FY-12      FY-13
Results      Results     Results      Target      Results      Rating        Target     Target
11           15          15           15          15           On target     15         15
Data Source: IAF official budget records, annual reports and submissions to OMB and Congress.

The IAF awarded 15 Grassroots Development Fellowships in 2011, which represented the fourth
cycle of its reinstituted program of support for research conducted by Ph.D. students who have
advanced to candidacy in U.S. universities. The Fellows were selected on the strength of their
academic record, their proposals and their potential contribution to grassroots development.
In 2011, the IAF formalized its juried competition for publications by IAF Fellows. Manuscripts
submitted underwent an independent, anonymous peer review and two were selected for publication
in the IAF’s 2011 Grassroots Development journal. Among other benefits, this brings the
Fellowship program to a wider audience.

A unique feature of the IAF program is the mid-year meeting that gives Fellows an opportunity to
share the results of their work with each other, with the IAF and with the Academic Review Panel
that selected them. At the end of their meeting, 10 Fellows in the 2010-2011 cycle organized two
back-to-back panels for the Congress of the Latin American Studies Association (LASA) scheduled
for May 2012. Kevin Healy, IAF representative for Bolivia and an internationally recognized
scholar in his own right, agreed to serve as overall chair; two members of the IAF’s Academic
Review Committee will join the panels as discussants.
Goal Five: Build upon and enhance current efficiency measures.
Performance Measure: Reduction in the portion of IAF’s budget spent on program support.



                                                   7
FY-08       FY-09        FY-10       FY-11        FY-11       FY-11 Rating    FY-12    FY-13
Results     Results      Results     Target       Results                     Target   Target
28.2%       26.6%        27.9%       28%          29.9%       Under target    30%      30%
Data Source: IAF official budget records, annual reports and submissions to OMB and Congress.

Applying guidelines of the American Institute of Certified Public Accountants (AICPA) Guide for
Not-for-Profit Organizations to calculate the IAF’s overhead expenditure in FY11 yields a figure of
13 percent, which is highly competitive with non-governmental foundations.

Because of prudent fiscal management, the IAF was able to transfer $660,000 of overhead/program
support funds to the grant program.

The IAF has significantly streamlined operations and lowered overhead by outsourcing key
administrative and technical functions through its longstanding inter-agency franchise agreements
with the Bureau of the Public Debt (BPD) of the U.S. Department of the Treasury and the National
Business Center (NBC) of the U.S. Department of the Interior. BPD provides services related to
procurement, accounting, the budget, travel and information technology (IT); NBC provides payroll
and human resource services that include timekeeping, processing and reporting personnel actions,
and to online applications such as the Federal Personnel and Payroll System (FPPS) and Employee
Express. These arrangements produce a savings in full-time equivalencies (FTEs) and overhead as
well as a depth of expertise that the IAF could not otherwise afford. Some further savings resulted
in FY11 when BPD assumed additional financial management duties and the agency consolidated
staff functions.

The IAF has been piloting the Internet Payment Platform (IPP), a new Web-based system for
approving invoices, which has allowed BPD to consolidate some positions and reduce its service
fee. Thanks to BPD and IPP’s excellent technical support, IAF staff has found the system very
efficient.

Maintaining current FTE levels and support systems is essential to achieving program goals. IAF
will continue to introduce technology and E-Gov initiatives that improve efficiency and further
reduce the cost of enterprise network equipment and maintenance, human resource operations,
travel and telecommunications. Since fiscal 2009, the IAF has participated with NBC in E-Gov
initiatives to improve personnel operations. In fiscal 2010, the eOPF project converted all Official
Personnel Folder (OPF) records to electronic format, which saves staff time in maintaining the
folders and affords IAF employees access on-line. The IAF is also planning to take advantage of
NBC’s Workforce Transformation and Tracking System (WTTS) and Entry on Duty Systems
(EODS) currently in preparation by the Department of Interior for roll-out in fiscal 2012. These
applications will further streamline operations and lower costs through additional automation and
the elimination of redundant data. NBC’s Talent Management System (TMS), which includes
modules for learning and performance management, is also under consideration for deployment by
the IAF in fiscal 2012.

Under its agreement with IAF, BPD’s IT support includes security, network administration and
help-desk services. The data center at the IAF’s Arlington offices has six servers that are maintained
remotely through a VPN connection by IT specialists at BPD’s facility in West Virginia. BPD also


                                                  8
hosts the IAF alternate COOP data center in West Virginia. Consolidated purchases of computer
equipment through BPD in fiscal 2011 allowed the IAF to complete acquisitions efficiently and at
less cost through discounts for bulk purchases.

The IAF continues to use the Central Contractor Registration, the sole repository for pertinent data
for all USG suppliers. Integration allows BPD and the IAF to more efficiently maintain current data
related to suppliers. The IAF is supporting the Financial Management Line of Business (FMLOB)
Initiative by using BPD’s Oracle Federal Financials System and related accounting and
procurement services and BPD has been reporting FMLOB metrics for IAF for the past three years.
The Oracle platform provides real-time, user-friendly financial reports. Since fiscal 2005, the IAF
has been using GovTrip, the government-wide E-Gov Travel system integrating online booking
with the automated authorization and vouchering process allowing travelers to attach receipts
electronically.

A modest portion of program support funds are invested in staff development, including through
mentoring and coaching, online training, workshops and seminars, and BPD and NBC’s on-site
classes. IAF subscribes to the Small Agency Council’s training program offering, for a $2,000
annual fee, between 25 and 30 courses each year through the Graduate School of the U. S.
Department of Agriculture. Approximately 25 percent of IAF employees take at least one class in
job-related skills or professional development at a significant savings to the agency. As the classes
cost between $700 and $1500 each, the IAF generally recovers the annual fee after two or three
enrollments.

Volunteer internships offer work experience to qualified undergraduate and graduate students from
across the country, who assist employees in IAF’s various offices. The IAF approved six internships
in fiscal 2011. The IAF plans to continue working with Partners of the Americas to sponsor
outstanding civil servants from Latin America and the Caribbean who spend between two and four
months working in a federal agency. The U.S. Department of State covers all expenses of the
program, while the host agency provides an assignment and a mentor.

In fiscal 2009, the IAF transitioned to General Services Administration’s Federal Technology
Service (GSA/FTS) Networx and WITS3 new government-wide telecommunications contracts.
This resulted in a savings of 35 percent in expenditures for domestic and international telephone
services in 2011.

The IAF is further improving its efficiency and direct financial savings over the next few years by
relocating its office and reducing rental space from 18,000 square feet to approximately 12,500
square feet. Cost-benefit analysis indicates that this will provide a slight net reduction in annual
rental cost over the next five years, and a significant reduction of over $1 million in the subsequent
five years.

The IAF continues to receive unqualified audits of its financial statements, internal controls over
financial reporting, and its compliance with relevant federal laws and regulations.

In spite of the above initiatives, the IAF was unable to meet its overhead target, mainly because of a
reduced budget of $3.9 million between FY-11 and FY-10.



                                                   9
I am pleased to introduce the IAF’s FY 2011 financial statements, which reflect the IAF’s quest to
become increasingly innovative while adhering to its core principles.

The financial statements and performance results data are complete, reliable and in accordance
with the Office of Management and Budget (OMB) requirements and in conformity with
generally accepted accounting principles. The IAF has appropriate management controls in
place to ensure that all internal controls are operating in accordance with applicable policies and
procedures and are effective in meeting the requirements imposed by Federal Managers’ Financial
Integrity Act (FMFIA) and the Federal Financial Management Improvement Act (FFMIA).

Signed:
 /s/
Robert N. Kaplan
President and CEO




                                                 10
Inter-American Foundation
        as of October 1. 2011




  ---
                                 -
                                _,.,-
                          ..........




          11
                           MANAGEMENT DISCUSSION AND ANALYSIS

The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency efficient in its
operations, innovative and effective in its grassroots development programs. The IAF learns from
its experience, and uses the lessons learned to improve its own grant making decisions and to
advance the knowledge and success of development practitioners, donors, and policy makers.

Mission and Organizational Requirements

The Inter-American Foundation funds self-help and participatory development efforts in ways that
support democracy and strengthen the bonds of friendship and understanding in the Western
Hemisphere. The IAF supports initiatives proposed by the organized poor in Latin America and the
Caribbean to improve their quality of life. IAF staff, representing the American government and
people, maintain a supportive relationship with the grantees and their beneficiaries during the
course of projects and, frequently, beyond. The IAF’s experiences are documented and shared with
a broad and diverse audience.

The IAF vision is a steady expansion of support for grassroots development and greater
participation by the people of Latin America and the Caribbean in their countries’ economic
development, social processes and political life. The IAF will continue to respond to the best ideas
from the region, empowering people by strengthening a vast infrastructure of community groups
and nongovernmental organizations that has become a highly effective and transparent channel for
productive foreign assistance. Because a broader resource base is crucial to an expanded IAF
program, the IAF will seek additional resources from various sources. The IAF will build on its
well-documented record of drawing local government, businesses, corporate foundations and
transnational communities into grassroots development. Through disseminating the lessons of its
investment to other donors, to policymakers and to American taxpayers, the IAF can continue to
lead the development community toward a realization that bottom-up development, in which the
organized poor play a leading role, is more effective than traditional top-down approaches.




                                                  12
The FY 2011 funding actions are divided among primary program areas as follows:

                                                 FY11 Grants by Program Area




                                          Legal assistance , $39,851
                                                Health , $299,100
                           Cultural expression , $632,922
                         Environment, $646,054
          Corporate social investment ,
                                                                                        Agriculture/food production ,
                  $1,068,077
                                                                                                $5,943,221



          Enterprise development ,
                $2,409,612


                                          Education/training, $3,925,116




     FY11 GRANTS FUNDED BY PRIMARY PROGRAM AREA

               Program Area                                                  IAF $         Funding Actions
  Agriculture/food production                                               5,943,221                    33
 Education/training                                                         3,925,116                    24
  Enterprise development                                                    2,409,612                    20
  Corporate social investment                                               1,068,077                      5
 Environment                                                                  646,054                      5
  Cultural expression                                                         632,922                      5
  Health                                                                      299,100                      1
  Legal assistance                                                             39,851                      1
 Total                                                                     14,963,953                    94




                                                                           13
                         FISCAL 2012 PERFORMANCE MEASURES


High-Priority Goal One: Fund effective development projects that improve the quality of life as
evidenced by measurable indicators.

Problem/need/challenge addressed: Congress created the IAF in 1969, underlining the linkage
between supporting self-help development efforts and civic engagement on the one hand, and
freedom, security and inclusive economic development of the hemisphere on the other. The IAF’s
delivery of U.S. government assistance directly to the organized poor has proved both cost-effective
and successful. However, desperate needs are still unmet and glaring inequities persist. In addition
to the human suffering that is the direct result of poverty, the consequences have included the
hollowing out of communities as desperate people migrate or become vulnerable to organized
crime, breeding instability that endangers the democratic process, among other strategic concerns.
Contributing IAF programs: Development grants, bolstered by an evaluation system that holds
grantees accountable for results and draws timely lessons to share broadly and thereby multiply the
impact of the IAF’s investment.
Contributing external U.S. government programs: All grantees are vetted by the respective U.S.
Embassy and grants are subject to approval by the United States Congress.
Lead persons/positions: Vice president, Office of Programs (development grants); director of
evaluations, Office of Operations (results verification).
Strategy and key measures: The IAF responds to the best ideas for self-help development in
response to our call-for-proposals. IAF grants to grassroots groups and the organizations that
support them fund efforts to strengthen communities and improve the quality of life as measured by
objective indicators including: new jobs and increased incomes; better housing and nutrition;
improved access to water, sanitation and health care services; credit, training and technology
resulting in more productive agriculture and businesses. Grantees commit to working toward
mutually agreed-upon goals, and the IAF monitors progress at regular intervals.

       Performance Measure 1.1: Grants in the fiscal year that target a better quality of life for
       beneficiaries as evidenced by measurable indicators.

       Performance Measure 1.2: Percentage of grantees whose funding ended in FY 2011 that
       met or exceeded outcome goals specified for each project.

       Performance Measure 1.3: Accomplishments, reported by IAF grantees active in FY 2011
       that improved the quality of life as evidenced by measurable indicators.


High-Priority Goal Two: Stimulate broader participation in the development process and broader
engagement in democratic practices.




                                                 14
Problem/need/challenge addressed: Discrimination on the basis of race, ethnicity, disability, age,
and gender means that African descendants, indigenous peoples, people with disabilities and
women are disproportionately represented among the poor in Latin America and the Caribbean and
disproportionately excluded from civic life and social services. When youth are not able to find
productive employment or income opportunities, social and political discourse can become more
volatile.
Contributing IAF programs: Development grants, bolstered by an evaluation system that holds
grantees accountable for results and draws timely lessons to share broadly and thereby multiply the
impact of the IAF’s investment, and travel grants.
Contributing external U.S. government programs: Development grants are subject to
congressional and U.S. Embassy approval. The IAF expects to continue to collaborate on programs
sponsored by the Smithsonian Institution and the U.S. Department of State, among other agencies.
Lead persons/positions: Vice president, Office of Programs, (development grants); vice president
(travel grants) and director of evaluations, (results verification), Office of Operations.
Strategy and key measures: Outreach to grassroots groups and nongovernmental organizations
serving African descendants, indigenous peoples, persons with disabilities, women and youth
assures their awareness of IAF’s development funding. The IAF also sponsors representatives of
marginalized groups in conferences, exchanges and other events that facilitate access to resources
and information and offer opportunities to network.

       Performance Measure 2.1: Grants awarded to groups and organizations of the
       marginalized and disenfranchised, including African descendants, indigenous peoples,
       people with disabilities, women and young people.

       Performance Measure 2.2: Events supported or organized to stimulate broader
       participation in the development process or engagement in democratic practices.


High-Priority Goal Three: Draw more resources into grassroots development.

Problem/need/challenge addressed: A broader resource base is crucial to IAF’s vision for a steady
expansion of support for grassroots development. The stimulation of investment from corporate,
philanthropic and public sources within participating countries in the region can multiply the IAF’s
impact many times over.
Contributing IAF programs: The IAF’s program of development grants, evaluation system (see
High-Priority Goal One), together with new partnership initiatives engaging the public and private
sector.
Contributing external U.S. government programs: These vary from year to year. The IAF is
currently partnering with the U.S. Department of State.
Lead persons/positions: Director, Office of External and Governmental Affairs (partnership
development and fundraising); Vice president, Office of Programs, (development grants); vice
president (travel grants) and director of evaluations, (results verification), Office of Operations.
Strategy and key measures: The IAF will continue to require grantees to contribute counterpart
funding toward their projects and encourage them to obtain additional support toward sustaining
their efforts through, inter alia, partnerships with local governments, businesses and philanthropic
institutions, as well as through new links to other U.S. and European donor sources. The IAF will
seek to expand opportunities in the business sector in the region, including through RedEAmérica,


                                                 15
an IAF-launched network of Latin America and Caribbean corporate foundations representing more
than 360 companies committed to investing in grassroots development. The IAF will make every
effort to bring its specialized expertise to bear in partnership with federal agencies and other
development organizations willing to invest in advancing grassroots projects.

       Performance Measure 3.1: Total verified dollar amount of in-kind and cash resources
       contributed or mobilized by grantees to further their efforts.

       Performance Measure 3.2: The dollar amount of resources invested in grassroots
       development through RedEAmérica and other corporate partners and donors.

       Performance Measure 3.3: Activities to encourage the investment of resources in
       development partnerships.

       Performance Measure 3.4: Funds secured as a result of private and philanthropic sector
       donation, investment, or sponsorship of IAF activities.

High-Priority Goal Four: Further understanding of the effectiveness of grassroots development by
analyzing and disseminating lessons from the IAF’s experiences and approach and by funding
research.

Problem/need/challenge addressed: No longer considered experimental, the IAF’s responsive
funding is increasingly recommended as the best way to improve the quality of life in marginalized
communities. However, donors, policymakers and American taxpayers still need deeper
understanding of poverty and inequality in Latin America and the Caribbean or the effectiveness of
bottom-up development, in which the organized poor take the initiative and do the work, as opposed
to traditional top-down approaches. Producing new knowledge about how development works in
the ever-changing context of the region today is a task that still requires the intellectual leadership
for which the IAF was created.
Contributing IAF programs: Carefully chosen projects; publications and communications;
Grassroots Development Fellowships; events organized and supported.
Contributing external U.S. government programs: These vary from year to year.
Lead persons/positions: Director, Office of External and Governmental Affairs, director of
publications and fellowships, Office of External and Governmental Affairs; vice president, Office
of Operations, (travel grants); Vice President for Programs and Foundation representatives.
Strategy and key measures: Through its annual report, website, journal Grassroots Development
and other communications published in English, Spanish and Portuguese, the IAF’s experiences and
approach reach a diverse international audience. Carefully selected projects test and document new
approaches to problems. IAF staff and grantee representatives further disseminate the IAF’s
experiences and its approach through conferences and speaking engagements in a range of venues.
IAF Grassroots Development Fellowships support dissertation research on relevant topics by Ph.D.
candidates in U.S. universities, contributing to the cadre of specialists and to exposure to the field of
grassroots development as Fellows become professionals and assume leadership roles in both the
public and private sectors.

       Performance Measure 4.1: Publications and other communications produced that
       disseminate the IAF’s experiences and approach.


                                                   16
       Performance Measure 4.2: Conferences, workshops, grantee exchanges, staff outreach and
       other activities sharing the IAF’s experience with and approach to grassroots development.

       Performance Measure 4.3: Funded research, including fellowships supporting doctoral
       research on related topics that adds to the body of knowledge related to grassroots
       development.


High-Priority Goal Five: Build upon and enhance current efficiency measures.

Problem/need/challenge addressed: Resources for government programs are already scarce and,
in the current context, further reductions are likely. Meanwhile, costs, including overhead expenses,
are expected to continue to rise. The Social Progress Trust Fund is moving toward depletion and is
variable from year to year, making it difficult to maintain a stable total resource envelope.
Contributing IAF programs: Inter-agency franchise agreements; travel grants.
Contributing external U.S. government programs: Bureau of the Public Debt (BPD),
Department of the Treasury; National Business Center (NBC), Department of the Interior; General
Services Administration’s Federal Technology Service (GSA-FTS).
Lead persons/positions: Vice president, Office of Operations, and director of information and
management services, Office of Operations.
Strategy and key measures: The IAF will work to draw maximum value from resources allocated
to programs. It will continue outsourcing to specialized government agencies many support
services: procurement, accounting, travel, human resources, payroll, equal employment opportunity
and information technology. The following cost-cutting measures will be in effect in fiscal 2012:

   •   Continued outsourcing of key accounting, budgeting, travel and information technology
       services to BPD;
   •   Continued outsourcing of payroll and human resource services to NBC;
   •   The introduction of new technology and E-Gov initiatives to reduce the costs of enterprise
       network equipment and maintenance, human resource operations, travel and
       telecommunications;
   •   Bulk purchases of computer equipment through BPD;
   •   Conversion of all Official Personnel Folder (OPF) records to electronic format and full
       implementation of the Electronic Official Personnel Folder (eOPF) online application;
   •   Adoption of the Workforce Transformation and Tracking System (WTTS) and Entry on
       Duty Systems (EODS) which NBC is preparing for roll-out;
   •   Deployment of NBC’s Talent Management System (TMS), with modules for learning
       management and performance management;
   •   Employee development through mentoring and coaching, online training, classes held by
       BPD and NBC, and the Small Agency Council training program of USDA Graduate School
       courses available at a reduced cost;
   •   Internships for between six and 10 university student-volunteers;
   •   Continued hosting and mentoring of outstanding civil servants from Latin America and the
       Caribbean, sponsored by Partners of the Americas and funded by the U.S. State Department
       for between two and four months;


                                                 17
   •   Continued telecommunications savings with the new GSA-FTS telecommunications
       agreement.
   •   Reduction of office rental footprint to secure long-term savings.

       Performance Measure 5.1: Reduction in the portion of IAF’s budget spent on program
       support.


                         FISCAL 2013 PERFORMANCE MEASURES


High-Priority Goal One: Fund effective development projects that improve the quality of life as
evidenced by measurable indicators.

Problem/need/challenge addressed: Congress created the IAF in 1969, underlining the linkage
between supporting self-help development efforts and civic engagement on the one hand, and
freedom, security and inclusive economic development of the hemisphere on the other. The IAF’s
delivery of U.S. government assistance directly to the organized poor has proved both cost-effective
and successful. However, desperate needs are still unmet and glaring inequities persist. In addition
to the human suffering that is the direct result of poverty, the consequences have included the
hollowing out of communities as desperate people migrate or become vulnerable to organized
crime, breeding instability that endangers the democratic process, among other strategic concerns.
Contributing IAF programs: Development grants, bolstered by an evaluation system that holds
grantees accountable for results and draws timely lessons to share broadly and thereby multiply the
impact of the IAF’s investment.
Contributing external U.S. government programs: All grantees are vetted by the respective U.S.
Embassy and grants are subject to approval by the United States Congress.
Lead persons/positions: Vice president, Office of Programs (development grants); director of
evaluations, Office of Operations (results verification).
Strategy and key measures: The IAF responds to the best ideas for self-help development in
response to our call-for-proposals. IAF grants to grassroots groups and the organizations that
support them fund efforts to strengthen communities and improve the quality of life as measured by
objective indicators including: new jobs and increased incomes; better housing and nutrition;
improved access to water, sanitation and health care services; credit, training and technology
resulting in more productive agriculture and businesses. Grantees commit to working toward
mutually agreed-upon goals, and the IAF monitors progress at regular intervals.

       Performance Measure 1.1: Grants in the fiscal year that target a better quality of life for
       beneficiaries as evidenced by measurable indicators.

       Performance Measure 1.2: Percentage of grantees whose funding ended in FY 2012 that
       met or exceeded outcome goals specified for each project.

       Performance Measure 1.3: Accomplishments, reported by IAF grantees active in FY 2012
       that improved the quality of life as evidenced by measurable indicators.




                                                 18
High-Priority Goal Two: Stimulate broader participation in the development process and broader
engagement in democratic practices.

Problem/need/challenge addressed: Discrimination on the basis of race, ethnicity, disability, age,
and gender means that African descendants, indigenous peoples, people with disabilities and
women are disproportionately represented among the poor in Latin America and the Caribbean and
disproportionately excluded from civic life and social services. When youth are not able to find
productive employment or income opportunities, social and political discourse can become more
volatile.
Contributing IAF programs: Development grants, bolstered by an evaluation system that holds
grantees accountable for results and draws timely lessons to share broadly and thereby multiply the
impact of the IAF’s investment,
and travel grants.
Contributing external U.S. government programs: Development grants are subject to
congressional and U.S. Embassy approval. The IAF expects to continue to collaborate on programs
sponsored by the Smithsonian Institution and the U.S. Department of State, among other agencies.
Lead persons/positions: Vice president, Office of Programs, (development grants); vice president
(travel grants) and director of evaluations, (results verification), Office of Operations.
Strategy and key measures: Outreach to grassroots groups and nongovernmental organizations
serving African descendants, indigenous peoples, persons with disabilities, women and youth
assures their awareness of IAF’s development funding. The IAF also sponsors representatives of
marginalized groups in conferences, exchanges and other events that facilitate access to resources
and information and offer opportunities to network.

       Performance Measure 2.1: Grants awarded to groups and organizations of the
       marginalized and disenfranchised, including African descendants, indigenous peoples,
       people with disabilities, women and young people.

       Performance Measure 2.2: Events supported or organized to stimulate broader
       participation in the development process or engagement in democratic practices.

High-Priority Goal Three: Draw more resources into grassroots development.

Problem/need/challenge addressed: A broader resource base is crucial to IAF’s vision for a steady
expansion of support for grassroots development. The stimulation of investment from corporate,
philanthropic and public sources within participating countries in the region can multiply the IAF’s
impact many times over.
Contributing IAF programs: The IAF’s program of development grants, evaluation system (see
High-Priority Goal One), together with new partnership initiatives engaging the public and private
sector.
Contributing external U.S. government programs: These vary from year to year. The IAF is
currently partnering with the U.S. Department of State.
Lead persons/positions: Director, Office of External and Governmental Affairs (partnership
development and fundraising); Vice president, Office of Programs, (development grants); vice
president (travel grants) and director of evaluations, (results verification), Office of Operations.
Strategy and key measures: The IAF will continue to require grantees to contribute counterpart
funding toward their projects and encourage them to obtain additional support toward sustaining


                                                 19
their efforts through, inter alia, partnerships with local governments, businesses and philanthropic
institutions, as well as through new links to other U.S. and European donor sources. The IAF will
seek to expand opportunities in the business sector in the region, including through RedEAmérica,
an IAF-launched network of Latin America and Caribbean corporate foundations representing more
than 360 companies committed to investing in grassroots development. The IAF will make every
effort to bring its specialized expertise to bear in partnership with federal agencies and other
development organizations willing to invest in advancing grassroots projects.

       Performance Measure 3.1: Total verified dollar amount of in-kind and cash resources
       contributed or mobilized by grantees to further their efforts.

       Performance Measure 3.2: The dollar amount of resources invested in grassroots
       development through RedEAmérica and other corporate partners and donors.

       Performance Measure 3.3: Activities to encourage the investment of resources in
       development partnerships.

       Performance Measure 3.4: Funds secured as a result of private and philanthropic sector
       donation, investment, or sponsorship of IAF activities.

High-Priority Goal Four: Further understanding of the effectiveness of grassroots development by
analyzing and disseminating lessons from the IAF’s experiences and approach and by funding
research.

Problem/need/challenge addressed: No longer considered experimental, the IAF’s responsive
funding is increasingly recommended as the best way to improve the quality of life in marginalized
communities. However, donors, policymakers and American taxpayers still need deeper
understanding of poverty and inequality in Latin America and the Caribbean or the effectiveness of
bottom-up development, in which the organized poor take the initiative and do the work, as opposed
to traditional top-down approaches. Producing new knowledge about how development works in
the ever-changing context of the region today is a task that still requires the intellectual leadership
for which the IAF was created.
Contributing IAF programs: Carefully chosen projects; publications and communications;
Grassroots Development Fellowships; events organized and supported.
Contributing external U.S. government programs: These vary from year to year.
Lead persons/positions: Director, Office of External and Governmental Affairs, director of
publications and fellowships, Office of External and Governmental Affairs; vice president, Office
of Operations, (travel grants); Vice President for Programs and Foundation representatives.
Strategy and key measures: Through its annual report, website, journal Grassroots Development
and other communications published in English, Spanish and Portuguese, the IAF’s experiences and
approach reach a diverse international audience. Carefully selected projects test and document new
approaches to problems. IAF staff and grantee representatives further disseminate the IAF’s
experiences and its approach through conferences and speaking engagements in a range of venues.
IAF Grassroots Development Fellowships support dissertation research on relevant topics by Ph.D.
candidates in U.S. universities, contributing to the cadre of specialists and to exposure to the field of
grassroots development as Fellows become professionals and assume leadership roles in both the
public and private sectors.


                                                   20
       Performance Measure 4.1: Publications and other communications produced that
       disseminate the IAF’s experiences and approach.

       Performance Measure 4.2: Conferences, workshops, grantee exchanges, staff outreach and
       other activities sharing the IAF’s experience with and approach to grassroots development.

       Performance Measure 4.3: Funded research, including fellowships supporting doctoral
       research on related topics that adds to the body of knowledge related to grassroots
       development.

High-Priority Goal Five: Build upon and enhance current efficiency measures.

Problem/need/challenge addressed: Resources for government programs are already scarce and,
in the current context, further reductions are likely. Meanwhile, costs, including overhead expenses,
are expected to continue to rise. The Social Progress Trust Fund is moving toward depletion and is
variable from year to year, making it difficult to maintain a stable total resource envelope.
Contributing IAF programs: Inter-agency franchise agreements; travel grants.
Contributing external U.S. government programs: Bureau of the Public Debt (BPD),
Department of the Treasury; National Business Center (NBC), Department of the Interior; General
Services Administration’s Federal Technology Service (GSA-FTS).
Lead persons/positions: Vice president, Office of Operations, and director of information and
management services, Office of Operations.
Strategy and key measures: The IAF will work to draw maximum value from resources allocated
to programs. It will continue outsourcing to specialized government agencies many support
services: procurement, accounting, travel, human resources, payroll, equal employment opportunity
and information technology. The following cost-cutting measures will be in effect in fiscal 2012 and
will continue through FY 2013:

   •   Continued outsourcing of key accounting, budgeting, travel and information technology
       services to BPD;
   •   Continued outsourcing of payroll and human resource services to NBC;
   •   The introduction of new technology and E-Gov initiatives to reduce the costs of enterprise
       network equipment and maintenance, human resource operations, travel and
       telecommunications;
   •   Bulk purchases of computer equipment through BPD;
   •   Conversion of all Official Personnel Folder (OPF) records to electronic format and full
       implementation of the Electronic Official Personnel Folder (eOPF) online application;
   •   Adoption of the Workforce Transformation and Tracking System (WTTS) and Entry on
       Duty Systems (EODS) which NBC is preparing for roll-out;
   •   Deployment of NBC’s Talent Management System (TMS), with modules for learning
       management and performance management;
   •   Employee development through mentoring and coaching, online training, classes held by
       BPD and NBC, and the Small Agency Council training program of USDA Graduate School
       courses available at a reduced cost;
   •   Internships for between six and 10 university student-volunteers;


                                                 21
•   Continued hosting and mentoring of outstanding civil servants from Latin America and the
    Caribbean, sponsored by Partners of the Americas and funded by the U.S. State Department
    for between two and four months;
•   Continued telecommunications savings with the new GSA-FTS telecommunications
    agreement.
•   Reduction of office rental footprint to secure long-term savings.

    Performance Measure 5.1: Reduction in the portion of IAF’s budget spent on program
    support.




                                            22
                 Analysis of Financial Statements and Stewardship Information

Systems, Controls, and Legal Compliance

Net Cost of Core Functions

The activity reported in the Statement of Net Cost reflects the resources used by the IAF during FY
2011. Program costs of $28,726,220 reflected a decrease of $1,167,942 in FY2011 from the
FY2010 amount of $29,894,162.

Payroll and benefits in FY2011 decreased to $5,127,733 from $5,309,383 in FY2010 and program-
related (not including grants/grant audits) activities in FY2011 decreased to $3,803,395 from
$5,169,201 in FY2010.


                      FY11 NET COST OF CORE FUNCTIONS




                                              Payroll and Benefits
                  Other Program Activities
                                                     19%
                           14%
                                                                     Rental Payments
                                                                          3%



                                                                     Operating Services
                                                                            8%
                    Grants/Grant Audits
                           56%




Fund Balance with U.S. Treasury

Total resources available from the U.S. Treasury and other financing sources for FY2011 and
FY2010 were $37,258,513 and $35,454,538 respectively. The difference of $1,803,975 is due to an
increase of SPTF collections and decreases in disbursements and grant advances.

Limitations on Financial Statements

The principal financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements
have been prepared from the books and records of the entity in accordance with GAAP for Federal
entities and the formats prescribed by OMB, the statements are in addition to the financial reports
used to monitor and control budgetary resources, which are prepared from the same books and
records. The statements should be read with the realization that they are a component of the U.S.
Government, a sovereign entity.



                                                    23
                 Inter-American Foundation
                                                       An Independent Agency of the U.S. Government

                                                                            November 8, 2011
Letter from the Chief Financial Officer

The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency
efficient in its operations, innovative and effective in its grassroots development
programs. The IAF learns from its experience, and uses the lessons learned to improve
its own grant making decisions and to advance the knowledge and success of
development practitioners, donors, and policy makers.

The IAF has significantly streamlined operations and lowered overhead by outsourcing
key administrative and technical functions through its longstanding inter-agency
franchise agreements with the Bureau of the Public Debt (BPD) of the U.S. Department
of the Treasury and the National Business Center (NBC) of the U.S. Department of the
Interior. BPD provides services related to procurement, accounting, the budget, travel and
information technology (IT); NBC provides payroll and human resource services that
include timekeeping and processing and reporting personnel actions as well as access to
online applications such as the Federal Personnel and Payroll System (FPPS) and
Employee Express. These arrangements produce a savings in full-time equivalencies
(FTEs) and overhead as well as provide a depth of expertise that the IAF could not
otherwise afford.

Auditors from the USAID Office of the Inspector General (OIG) completed the annual
independent assessment of the security infrastructure supporting IAF’s enterprise
network system and agency compliance with the Federal Information Security
Management Act. A positive final FISMA audit report was received from the OIG
auditors in September 2011.

The IAF is supporting the Financial Management Line of Business (FMLOB) Initiative
by using BPD’s Oracle Federal Financials System and related accounting and
procurement services and BPD has been reporting FMLOB metrics for IAF for the past
two years. The Oracle platform provides real-time, user-friendly financial reports. The
IAF continues to receive unqualified audits of its financial statements, internal controls
over financial reporting, and its compliance with relevant federal laws and regulations.

In fiscal 2009, the IAF transitioned to General Services Administration’s Federal
Technology Service (GSA/FTS) Networx and WITS3 new government-wide
telecommunications contracts. This resulted in a savings of 35 percent in expenditures for
domestic and international telephone services in 2011.




                                             24
The IAF, in conjunction with BPD, analyzed and evaluated its systems of management
control and financial management under the Federal Managers’ Financial Integrity Act
(FMFIA) for the year ended September 30, 2011, according to the procedures and
standards prescribed by the Office of Management and Budget (OMB) and the
Government Accountability Office. Based on this evaluation we found that our systems
of management controls provide reasonable assurance that: programs are free from
waste, fraud and mismanagement; laws and regulations are followed; our continuity of
operations planning in critical areas is sufficient to reduce risk to reasonable levels; and
our performance information is reliable as defined in OMB Circular A-11, Section
232.10. We further found that the IAF’s financial management systems, in conjunction
with those of BPD, meet the Federal government’s management system objectives of
usefulness, timeliness, reliability and completeness, comparability and consistency, and
efficiency and economy. As a result, we conclude that there is reasonable assurance that
the Inter-American Foundation complies with Sections 2 and 4 of the FMFIA.

We have no open or new material weakness or nonconformance to report; we have not
discovered any material weakness or nonconformance during fiscal year 2011; and we do
not have any open reportable conditions or second tier issues. In addition, we have found
that, for the year ended September 30, 2011, the Inter-American Foundation’s
administrative and fiscal accounting systems substantially comply with the requirements
of the Federal Financial Management Improvement Act (FFMIA).

The financial statements and performance results data are complete, reliable and in
accordance with OMB requirements and in conformity with generally accepted
accounting principles. The IAF has appropriate management controls in place to
ensure that all internal controls are operating in accordance with applicable policies and
procedures and are effective in meeting the requirements imposed by the FMFIA and
FFMIA.

Signed:


/s/

Linda B. Kolko
Vice President for Operations and
Chief Financial Officer




________________________________________________________________________
901 N. Stuart Street * Arlington, VA 22203 * Phone: 703-306-4301 * Fax: 703-306-4365




                                              25
         INDEPENDENT AUDITOR'S REPORT ON THE FINANCIAL STATEMENTS


Inter-American Foundation
Washington, D.C.

We have audited the accompanying balance sheet of the Inter-American Foundation (IAF) as of
September 30, 2011 and 2010 and the related statements of net cost, changes in net position, and
budgetary resources, for the years then ended (collectively referred to as the financial statements). These
financial statements are the responsibility of IAF’s management. Our responsibility is to express an
opinion on these financial statements based on our audit.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in U.S. Government Auditing Standards,
issued by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards
and OMB Bulletin No. 07-04, as amended, require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement presentation. We believe that
our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the IAF as of September 30, 2011 and 2010 and its net costs, changes in net position,
and budgetary resources for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with U.S. Government Auditing Standards and OMB Bulletin No. 07-04, as amended, we
have also issued our reports dated November 8, 2011 on our consideration of the IAF internal control over
financial reporting and its compliance with certain provisions of laws and regulations. Those reports are
an integral part of an audit performed in accordance with U.S. Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.

Accounting principles generally accepted in the United States of America require that the Management
Discussion and Analysis (MD&A) be presented to supplement the basic financial statements. Such
information, although not a part of the basic financial statements, is required by OMB Circular A-136,
Financial Reporting Requirements, as revised, that considers it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted
of inquiries of management about the methods of preparing the information and comparing the
information for consistency with management's responses to our inquiries, the basic financial statements,
and other knowledge we obtained during our audit of the basic financial statements. We do not express an
opinion or provide any assurance on the information because the limited procedures do not provide us
with sufficient evidence to express an opinion or provide any assurance.


                  LARGO                                                            RICHMOND
   1101 MERCANTILE LANE, SUITE 122                                    1504 SANTA ROSA ROAD, SUITE 107
             LARGO, MD 20774                                                  RICHMOND, VA 23229
    (240) 492-1400 - FAX: (301) 773-2090            26                 (804) 288-2006 - FAX: (804) 288-2233
           mail@brownco-cpas.com                                             tdavis@brownco-cpas.com
         This report is intended solely for the information and use of the management of the IAF, OMB and
         Congress, and is not intended to be and should not be used by anyone other than these specified parties.


         Largo, Maryland
         November 8, 2011




IE:::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::= BROWN   &   COMPANY CPAS, PLLC   ::::::::========~

                                                                                        27
                           INDEPENDENT AUDITOR’S REPORT
                   ON INTERNAL CONTROL OVER FINANCIAL REPORTING


Inter-American Foundation
Washington, D.C.

We have audited the financial statements of the Inter-American Foundation (IAF) as of and for the year
ended September 30, 2011 and have issued our report thereon dated November 8, 2011. We conducted
our audit in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in U.S. Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No.
07-04, Audit Requirements for Federal Financial Statements, as amended.

In planning and performing our audit, we considered the IAF’s internal control over financial reporting by
obtaining an understanding of the IAF’s internal control, determined whether internal controls had been
placed in operation, assessed control risk, and performed tests of controls in order to determine our
auditing procedures for the purpose of expressing our opinion on the financial statements. We limited our
internal control testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 07-04, as amended. The objective of our audit was not to provide an opinion on internal control and
therefore, we do not express an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be a material weakness or significant
deficiency. Under standards issued by the American Institute of Certified Public Accountants and OMB
Bulletin No. 07-04, as amended, a material weakness is a deficiency, or combination of deficiencies, in
internal control, such that there is a reasonable possibility that a material misstatement of the entity’s
financial statements will not be prevented, or detected and corrected on a timely basis. A significant
deficiency is a deficiency in internal control, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged with
governance. Because of inherent limitations in internal controls, misstatements, losses, or non-
compliance may nevertheless occur and not be detected. However, we noted no matters involving the
internal control and its operation that we considered to be a material weakness as defined above.

This report is intended solely for the information and use of the management of the IAF, OMB and
Congress, and is not intended to be and should not be used by anyone other than these specified parties.


Largo, Maryland
November 8, 2011




                   LARGO                                                            RICHMOND
    1101 MERCANTILE LANE, SUITE 122                                    1504 SANTA ROSA ROAD, SUITE 107
              LARGO, MD 20774                                                  RICHMOND, VA 23229
     (240) 492-1400 - FAX: (301) 773-2090            28                 (804) 288-2006 - FAX: (804) 288-2233
            mail@brownco-cpas.com                                             tdavis@brownco-cpas.com
                           INDEPENDENT AUDITOR'S REPORT ON
                        COMPLIANCE WITH LAWS AND REGULATIONS


Inter-American Foundation
Washington, D.C.

We have audited the financial statements of the Inter-American Foundation (IAF) as of and for the year
ended September 30, 2011 and have issued our report thereon dated November 8, 2011. We conducted
our audit in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in U.S. Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No.
07-04, Audit Requirements for Federal Financial Statements, as amended.

The management of the IAF is responsible for complying with laws and regulations applicable to the IAF.
As part of obtaining reasonable assurance about whether the IAF’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain other laws and regulations specified in OMB Bulletin No. 07-04,
as amended. We limited our tests of compliance to these provisions and we did not test compliance with
all laws and regulations applicable to the IAF.

The results of our tests of compliance with laws and regulations disclosed no reportable instances of
noncompliance with laws and regulations discussed in the preceding paragraph that are required to be
reported under U.S. Government Auditing Standards or OMB Bulletin No. 07-04, as amended.

Providing an opinion on compliance with certain provisions of laws and regulations was not an objective
of our audit, and, accordingly, we do not express such an opinion. However, we noted no noncompliance
with laws and regulations, which could have a direct and material effect on the determination of financial
statement amounts.

This report is intended solely for the information and use of the management of the IAF, OMB and
Congress, and is not intended to be and should not be used by anyone other than these specified parties.


Largo, Maryland
November 8, 2011




                  LARGO                                                           RICHMOND
   1101 MERCANTILE LANE, SUITE 122                                   1504 SANTA ROSA ROAD, SUITE 107
             LARGO, MD 20774                                                 RICHMOND, VA 23229
    (240) 492-1400 - FAX: (301) 773-2090           29                 (804) 288-2006 - FAX: (804) 288-2233
           mail@brownco-cpas.com                                            tdavis@brownco-cpas.com
                                      INTER-AMERICAN FOUNDATION
                                             BALANCE SHEET
                                     AS OF SEPTEMBER 30, 2011 AND 2010
                                                (In Dollars)

                                                                                 2011              2010
Assets:
 Intragovernmental
    Fund Balance With Treasury (Note 2)                                      $   37,258,513    $   35,454,538
    Advances and Prepayments (Note 3)                                                15,758            24,840
 Total Intragovernmental                                                         37,274,271        35,479,378
 Advances and Prepayments (Note 3)                                                1,617,605         2,165,924
Total Assets                                                                 $   38,891,876    $   37,645,302

Liabilities:
  Intragovernmental
    Accounts Payable                                                         $      261,762    $       46,093
    Other (Note 6)                                                                  819,477           905,919
  Total Intragovernmental                                                         1,081,239           952,012
  Accounts Payable                                                                  698,438           367,054
  Other (Note 6)                                                                    642,021           589,746
Total Liabilities                                                            $    2,421,698    $    1,908,812

Net Position:
 Unexpended Appropriations - Other Funds                                         22,258,454        22,921,207
 Cumulative Results of Operations - Earmarked Funds (Note 14)                    14,616,774        13,204,163
 Cumulative Results of Operations - Other Funds                                    (405,050)         (388,880)
 Total Net Position                                                          $   36,470,178    $   35,736,490
Total Liabilities and Net Position                                           $   38,891,876    $   37,645,302




The accompanying notes are an integral part of these financial statements.

                                                        30
                                  INTER-AMERICAN FOUNDATION
                                     STATEMENT OF NET COST
                      FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2011 AND 2010
                                            (In Dollars)

                                                                                 2011              2010
Program Costs:
 Foreign Grant Program: (Note 9)
    Gross Costs                                                              $   28,826,034    $   29,894,162
    Less: Earned Revenue                                                            (99,814)                -
Net Cost of Operations                                                       $   28,726,220    $   29,894,162




The accompanying notes are an integral part of these financial statements.

                                                       31
                                                                       INTER-AMERICAN FOUNDATION
                                                                  STATEMENT OF CHANGES IN NET POSITION
                                                           FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2011 AND 2010
                                                                                 (In Dollars)

                                                                  2011               2011                2011                2010               2010                2010
                                                             Earmarked Funds    All Other Funds    Consolidated Total   Earmarked Funds    All Other Funds    Consolidated Total

Cumulative Results of Operations:
Beginning Balances                                            $   13,204,163    $      (388,880)    $    12,815,283     $    15,630,157    $      (378,777)   $     15,251,380

Budgetary Financing Sources:
  Appropriations Used                                                      -         22,320,354          22,320,354                   -         22,456,370          22,456,370
  Donations and Forfeitures of Cash and Cash Equivalents               5,450                  -               5,450               2,000                  -               2,000
  Other                                                            7,499,449                              7,499,449           4,615,000                  -           4,615,000

Other Financing Sources (Non-Exchange):
  Imputed Financing Sources (Note 10)                                      -            297,408             297,408                   -            384,695              384,695
Total Financing Sources                                            7,504,899         22,617,762          30,122,661           4,617,000         22,841,065           27,458,065
Net Cost of Operations                                            (6,092,288)       (22,633,932)        (28,726,220)         (7,042,994)       (22,851,168)         (29,894,162)
Net Change                                                         1,412,611            (16,170)          1,396,441          (2,425,994)           (10,103)          (2,436,097)
Cumulative Results of Operations                              $   14,616,774    $      (405,050)    $    14,211,724     $    13,204,163    $      (388,880)   $      12,815,283

Unexpended Appropriations:
Beginning Balances                                            $            -    $    22,921,207     $    22,921,207     $             -    $    22,609,925    $     22,609,925

Budgetary Financing Sources:
  Appropriations Received                                                  -         22,499,000          22,499,000                   -         23,000,000           23,000,000
  Other Adjustments                                                        -           (841,399)           (841,399)                  -           (232,348)            (232,348)
  Appropriations Used                                                      -        (22,320,354)        (22,320,354)                  -        (22,456,370)         (22,456,370)
Total Budgetary Financing Sources                                          -           (662,753)           (662,753)                  -            311,282              311,282
Total Unexpended Appropriations                               $            -    $    22,258,454     $    22,258,454     $             -    $    22,921,207    $      22,921,207
Net Position                                                  $   14,616,774    $    21,853,404     $    36,470,178     $    13,204,163    $    22,532,327    $      35,736,490




     The accompanying notes are an integral part of these financial statements.

                                                                                         32
                                      INTER-AMERICAN FOUNDATION
                                  STATEMENT OF BUDGETARY RESOURCES
                          FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2011 AND 2010
                                                (In Dollars)

                                                                                 2011               2010
Budgetary Resources:
Unobligated Balance:
Unobligated Balance Brought Forward, October 1                               $    6,149,512     $    7,607,259
Recoveries of Prior Year Unpaid Obligations                                       1,347,883          1,396,805
Budget Authority
  Appropriation                                                                  22,499,000         23,000,000
  Spending Authority From Offsetting Collections
    Earned
      Collected                                                                   7,604,713          4,617,000
    Change In Unfilled Customer Orders
      Advance Received                                                              (99,814)           850,000
  Subtotal                                                                       30,003,899         28,467,000
Permanently Not Available                                                          (841,399)          (232,348)
Total Budgetary Resources                                                    $   36,659,895     $   37,238,716

Status of Budgetary Resources:
Obligations Incurred (Note 15)
  Direct                                                                     $   27,026,882     $   30,239,204
  Reimbursable                                                                      850,000            850,000
  Subtotal                                                                       27,876,882         31,089,204
Unobligated Balance
  Apportioned                                                                       276,480            153,675
Unobligated Balance Not Available                                                 8,506,533          5,995,837
Total Status of Budgetary Resources                                          $   36,659,895     $   37,238,716

Change in Obligated Balance:
Obligated Balance, Net
 Unpaid Obligations, Brought Forward, October 1                              $    29,305,026    $    29,991,127
Obligations Incurred Net                                                          27,876,882         31,089,204
Gross Outlays                                                                    (27,358,525)       (30,378,500)
Recoveries of Prior Year Unpaid
 Obligations, Actual                                                             (1,347,883)        (1,396,805)
                                                                                 28,475,500         29,305,026
Obligated Balance, Net, End of Period
 Unpaid Obligations                                                              28,475,500         29,305,026
Total, Unpaid Obligated Balance, Net, End of Period                          $   28,475,500     $   29,305,026

Net Outlays:
 Gross Outlays                                                               $   27,358,525     $   30,378,500
 Offsetting Collections                                                          (7,504,899)        (5,467,000)
Net Outlays                                                                  $   19,853,626     $   24,911,500




The accompanying notes are an integral part of these financial statements.
                                                        33
                   INTER-AMERICAN FOUNDATION
                NOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT                         of the Statement of Budgetary Resources, are
ACCOUNTING POLICIES                                    different from financial management reports,
                                                       which are also prepared pursuant to OMB
A. Reporting Entity                                    directives that are used to monitor and control
                                                       the IAF's use of budgetary resources. The
The Inter-American Foundation (IAF), a U.S.            financial statements and associated notes are
government corporation, was established                presented on a comparative basis. Unless
pursuant to part IV of the Foreign Assistance          specified otherwise, all amounts are presented
Act of 1969 (22 U.S.C. 290f (a)). The IAF              in dollars.
provides grants to support the initiatives of
non-governmental     and    community-based            C. Budgets and Budgetary Accounting
organizations in Latin America and the
Caribbean to implement their economic                  Congress enacts appropriations to permit the
development and poverty reduction projects.            IAF to incur obligations for authorized
                                                       purposes. In fiscal years 2011 and 2010, the
The management of the IAF is vested in a               IAF was accountable for the Social Progress
nine-person Board of Directors appointed by            Trust Fund (SPTF), Gift Fund, and General
the President of the United States. Six Board          Fund appropriations. The IAF recognizes
members are drawn from the private sector and          budgetary resources as assets when cash (funds
three from officers or employees of agencies of        held by the U.S. Treasury) is made available
the U.S. Government concerned with Inter-              through the Department of Treasury General
American activities. The Board appoints the            Fund warrants and transfers from the Inter-
IAF’s president who acts as the chief executive        American Development Bank (IDB).
officer.
                                                       D. Basis of Accounting
B. Basis of Presentation
                                                       Transactions are recorded on both an accrual
The financial statements have been prepared to         accounting basis and a budgetary basis. Under
report the financial position, net cost of             the accrual method, revenues are recognized
operations, changes in net position, and the           when earned, and expenses are recognized
status and availability of budgetary resources         when a liability is incurred, without regard to
of the IAF. The statements are a requirement           receipt or payment of cash.          Budgetary
of the Chief Financial Officers Act of 1990,           accounting facilitates compliance with legal
the Government Management Reform Act of                requirements on the use of federal funds.
1994 and the Accountability of Tax Dollars
Act of 2002. They have been prepared from,             E. Revenues & Other Financing Sources
and are fully supported by, the books and
records of the IAF in accordance with the              The IAF’s grant program is funded by
hierarchy of accounting principles generally           appropriation from the budget of the United
accepted in the United States of America,              States, agreement with the Inter-American
standards approved by the principals of the            Development Bank covering the SPTF, and
Federal Accounting Standards Advisory Board            donations from the private sector. No-year
(FASAB), OMB Circular A-136, Financial                 appropriations     remain   available   until
Reporting Requirements, and the IAF                    expended, while multi-year appropriations are
accounting policies which are summarized in            available for the period prescribed by the
this note. These statements, with the exception        applicable statute. Appropriations are used,

                                                  34
within statutory limits, for programmatic,              F. Taxes
operating and capital expenditures for essential
personal property.        Appropriations are            The IAF, as a Federal entity, is not subject to
recognized as a financing source when                   Federal, State, or local income taxes, and,
expended.      Appropriations expended for              accordingly, no provision for income taxes has
capitalized property and equipment are                  been recorded in the accompanying financial
recognized as expense when an asset is                  statements.
consumed in operations.
                                                        G. Fund Balance with Treasury
The IAF has an agreement with the IDB to
receive funds from the SPTF to finance part of          The U.S. Treasury processes cash receipts and
the IAF’s grant program. The IDB is an                  disbursements. Funds with the Department of
international financial organization established        the Treasury primarily represent appropriated
to promote the economic and social                      funds and SPTF collections that are available
development of member countries. The United             to pay agency liabilities and finance authorized
States’ participation in IDB is authorized and          purchases commitments and SPTF grants. The
governed by the Inter-American Development              IAF does not maintain cash in commercial
Bank Act (22 U.S.C. 283). Within IDB, the               bank accounts or foreign currency balances.
United States established the SPTF in 1961              Foreign currency payments are made either by
and provided appropriations to SPTF through             Treasury or the Department of State and are
1964. IDB was designated as the administrator           reported by the IAF in the U.S. dollar
for the SPTF and committed the original SPTF            equivalents.
appropriations to loans. Repayments of these
loans are recycled by the IDB in accordance             H. Accounts Receivable
with the original agreement and subsequent
provision for additional loans, technical               Accounts receivable consists of amounts owed
cooperation programs, and financing of the              to the IAF by other Federal agencies and the
Inter-American Foundation program. Congress             general public. Amounts due from Federal
enacts annual, multi-year, and no-year                  agencies are considered fully collectible.
appropriations to be used, within statutory             Accounts receivable from the public include
limits, for operating, capital and grant                reimbursements from employees.              An
expenditures. Additional amounts are obtained           allowance       for  uncollectible     accounts
from service fees and reimbursements from               receivable from the public is established when,
other government entities and the public.               based upon a review of outstanding accounts
                                                        and the failure of all collection efforts,
Pursuant to a 1973 amendment to the Foreign             management determines that collection is
Assistance Act of 1961, IDB provides funds to           unlikely to occur considering the debtor’s
finance social development projects. These              ability to pay.
funds are made available in U.S. dollars upon
request by the IAF, subject to denomination             I. Property, Equipment, and Software
availability and exchange controls. In 2002,
the SPTF agreement was amended to make                  Property, equipment and software represent
available all remaining funds until exhausted.          furniture, fixtures, equipment, and information
                                                        technology hardware and software which are
The IAF recognizes as an imputed financing              recorded at original acquisition cost and are
source the amount of accrued pension and                depreciated or amortized using the straight-line
post-retirement benefit expenses for current            method over their estimated useful lives.
employees paid on its behalf by the Office of           Major alterations and renovations are
Personnel Management (OPM).                             capitalized, while maintenance and repair costs



                                                   35
are expensed as incurred.            The IAF's           such as leases, utilities, telecommunications
capitalization threshold is $50,000 for                  and consulting and support services.
individual purchases and $500,000 for bulk
purchases. Applicable standard governmental              M. Annual, Sick, and Other Leave
guidelines regulate the disposal and
convertibility of agency property, equipment,            Annual leave is accrued as it is earned, and the
and software. The useful life classifications            accrual is reduced as leave is taken. The
for capitalized assets are as follows:                   balance in the accrued leave account is
                                                         adjusted to reflect current pay rates. Liabilities
Description                 Useful Life (years)          associated with other types of vested leave,
                                                         including compensatory, restored leave, and
Office Furniture                     10
                                                         sick leave in certain circumstances, are accrued
ADP Equipment                         3                  at year-end, based on latest pay rates and
Office Equipment                     10                  unused hours of leave. Funding will be
IT Software                           3                  obtained from future financing sources to the
                                                         extent that current or prior year appropriations
J. Advances and Prepaid Charges                          are not available to fund annual and other
                                                         types of vested leave earned but not taken.
Advance payments are generally prohibited by             Nonvested leave is expensed when used. Any
law. There are some exceptions, such as                  liability for sick leave that is accrued but not
reimbursable agreements, subscriptions and               taken by a Civil Service Retirement System
payments to contractors and employees.                   (CSRS)-covered employee is transferred to
Payments made in advance of the receipt of               OPM upon the retirement of that individual.
goods and services are recorded as advances or           Credit is given for sick leave balances in the
prepaid charges at the time of prepayment and            computation of annuities upon the retirement
recognized as expenses when the related goods            of Federal Employees Retirement System
and services are received.                               (FERS)-covered employees effective at 50%
                                                         beginning FY2010 and 100% in 2014.
K. Liabilities
                                                         N. Retirement Plans
Liabilities represent the amount of monies or
other resources likely to be paid by the                 The IAF employees participate in either the
IAF as a result of transactions or events that           CSRS or the FERS. The employees who
have already occurred. No liability can be               participate in CSRS are beneficiaries of the
paid, however, absent an appropriation or                IAF matching contribution, equal to seven
SPTF funding. Liabilities for which an                   percent of pay, distributed to their annuity
appropriation has not been enacted or other              account in the Civil Service Retirement and
funds received are, therefore, classified as not         Disability Fund.
covered by budgetary resources. There is no
certainty that the appropriation will be enacted.        Prior to December 31, 1983, all employees
Additionally, the Government, acting in its              were covered under the CSRS program. From
sovereign capacity, can abrogate liabilities.            January 1, 1984 through December 31, 1986,
                                                         employees had the option of remaining under
L. Accounts Payable                                      CSRS or joining FERS and Social Security.
                                                         Employees hired as of January 1, 1987 are
Accounts payable consists primarily of                   automatically covered by the FERS program.
amounts owed to other Federal agencies and               FERS offers a savings plan to which the IAF
the public for contracts for goods or services,          automatically contributes one percent of pay
                                                         and matches any employee contribution up to
                                                         an additional four percent of pay. For FERS


                                                    36
participants, The IAF also contributes the                 quarter by 50%. This estimate will be done
employer’s matching share of Social Security.              each quarter to determine the amount of grant
                                                           disbursements to be accounted for as grant
FERS employees and certain CSRS                            advances in the Balance Sheet.
reinstatement employees are eligible to
participate in the Social Security program after           P. Use of Estimates
retirement. In these instances, the IAF remits
the employer’s share of the required                       The preparation of the accompanying financial
contribution.                                              statements in accordance with generally
                                                           accepted accounting principles requires
The IAF recognizes the imputed cost of                     management to make certain estimates and
pension and other retirement benefits during               assumptions that affect the reported amounts
the employees’ active years of service. OPM                of assets, liabilities, revenues, and expenses.
actuaries determine pension cost factors by                Actual results could differ from those
calculating the value of pension benefits                  estimates.
expected to be paid in the future and
communicate these factors to the IAF for                   Q. Imputed Costs/Financing Sources
current period expense reporting. OPM also
provides information regarding the full cost of            Federal Government entities often receive
health and life insurance benefits. The IAF                goods and services from other Federal
recognized the offsetting revenue as imputed               Government entities without reimbursing the
financing sources to the extent these expenses             providing entity for all the related costs. In
will be paid by OPM.                                       addition, Federal Government entities also
                                                           incur costs that are paid in total or in part by
The IAF does not report on its financial                   other entities. An imputed financing source is
statements information pertaining to the                   recognized by the receiving entity for costs
retirement plans covering its employees.                   that are paid by other entities. The IAF
Reporting amounts such as plan assets,                     recognized imputed costs and financing
accumulated plan benefits, and related                     sources in fiscal years 2011 and 2010 to the
unfunded liabilities, if any, is the responsibility        extent directed by OMB.
of the OPM.
                                                           R. Expired Accounts and Canceled
O. Grant Disbursements and                                 Authority
Administrative Expenses
                                                           Unless otherwise specified by law, annual
Grant disbursements include payments in                    authority expires for incurring new obligations
advance of performance under contractual                   at the beginning of the subsequent fiscal year.
obligations.    Evidence of performance is                 The account in which the annual authority is
determined by review of periodic expenditure               placed is called the expired account. For five
reports. All of the IAF expenditures for grants            fiscal years, the expired account is available
over $35,000 are independently verified using              for expenditure to liquidate valid obligations
the IAF’s audit guidelines.        The IAF’s               incurred during the unexpired period.
administrative expenses are funded solely by               Adjustments are allowed to increase or
appropriated funds.                                        decrease valid obligations incurred during the
                                                           unexpired period but not previously reported.
For three years prior to FY10, the IAF did not             At the end of the fifth expired year, the expired
estimate grant advances. In FY09, the IAF                  account is canceled.
began estimating grant advances by
multiplying the grants disbursed during the



                                                      37
NOTE 2. FUND BALANCE WITH TREASURY

Fund balance with Treasury account balances as of September 30, 2011 and 2010 were as
follows:

                                                           2011                     2010
Fund Balances:
Trust Funds                                            $         1,055         $            33
Social Progress Trust Funds (SPTF)                          14,122,705              12,210,578
Appropriated Funds                                          23,134,753              23,243,927
Total                                                  $    37,258,513         $    35,454,538

Status of Fund Balance with Treasury:
Unobligated Balance
   Available                                           $       276,480         $       153,675
   Unavailable                                               8,506,533               5,995,837
Obligated Balance Not Yet Disbursed                         28,475,500              29,305,026
Total                                                  $    37,258,513         $    35,454,538

The available unobligated fund balances represent the current-period amount available for
obligation or commitment. At the start of the next fiscal year, this amount will become part
of the unavailable balance as described in the following paragraph.

The unavailable unobligated fund balances represent the amount of appropriations for which the
period of availability for obligation has expired. These balances are available for upward
adjustments of obligations incurred only during the period for which the appropriation was
available for obligation or for paying claims attributable to the appropriations.

The obligated balance not yet disbursed includes accounts payable, accrued expenses, and
undelivered orders that have reduced unexpended appropriations but have not yet decreased the
cash balance on hand (see also Note 8).

NOTE 3. ADVANCES AND PREPAYMENTS

Other assets account balances as of September 30, 2011 and 2010, were as follows:

                                                           2011                     2010
Intragovernmental
  Advances and Prepayments                             $       15,758          $       24,840
With the Public
  Grant Advances                                       $    1,617,605          $    2,165,924
Total Other Assets                                     $    1,633,363          $    2,190,764




                                              38
NOTE 4. PROPERTY, EQUIPMENT, AND SOFTWARE

Schedule of Property, Equipment, and Software as of September 30, 2011

                                                           Accumulated
                                   Acquisition             Amortization/                Net Book
Major Class                           Cost                 Depreciation                  Value
ADP Equipment                     $       4,972            $       4,972                           -
Office Furniture                         33,106                   33,106                           -
Total                             $      38,078            $      38,078           $               -

Schedule of Property, Equipment, and Software as of September 30, 2010

                                                           Accumulated
                                    Acquisition            Amortization/                Net Book
Major Class                            Cost                Depreciation                  Value
ADP Equipment                      $      22,502           $      22,502           $               -
Office Furniture                          36,895                  36,895                           -
Total                              $      59,397           $      59,397           $               -

NOTE 5. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

The liabilities for the IAF as of September 30, 2011 and 2010 include liabilities not covered by
budgetary resources. Congressional action is needed before budgetary resources can be provided.
Although future appropriations to fund these liabilities are likely and anticipated, it is not certain
that appropriations will be enacted to fund these liabilities.

                                                                   2011                   2010
Unfunded Leave                                                        405,049                388,880
Total Liabilities Not Covered by Budgetary Resources $                405,049       $        388,880
Total Liabilities Covered by Budgetary Resources                    2,016,650              1,519,932
Total Liabilities                                    $              2,421,699       $      1,908,812

Unfunded leave represents a liability for earned leave and is reduced when leave is taken. The
balance in the accrued annual leave account is reviewed quarterly and adjusted as needed to
accurately reflect the liability at current pay rates and leave balances. Accrued annual leave is
paid from future funding sources and, accordingly, is reflected as a liability not covered by
budgetary resources. Sick and other leave is expensed as taken.




                                                 39
NOTE 6. OTHER LIABILITIES

Other liabilities account balances as of September 30, 2011 were as follows:

                                                          Current                  Total
Intragovernmental
  Liability for Advances and Prep ay ments            $        750,185         $      750,185
  Pay roll Taxes Pay able                                       69,292                 69,292
Total Intragovernmental Other Liabilities             $        819,477         $      819,477


With the Public
  Accrued Funded Pay roll and Leave                   $        236,971         $      236,971
  Unfunded Leave                                               405,050                405,050
Total Public Other Liabilities                        $        642,021         $      642,021


Other liabilities account balances as of September 30, 2010 were as follows:

                                                          Current                  Total
Intragovernmental
  Liability for Advances and Prepayments              $        850,000         $      850,000
  Payroll Taxes Payable                                         55,919                 55,919
Total Intragovernmental Other Liabilities             $        905,919         $      905,919


With the Public
  Accrued Funded Payroll and Leave                    $        200,866         $      200,866
  Unfunded Leave                                               388,880                388,880
Total Public Other Liabilities                        $        589,746         $      589,746


NOTE 7. COMMITMENTS AND CONTINGENCIES

In the course of the agency's grant-making activities, the IAF has unliquidated grant obligations
which, in the absence of violations or cancellations of the grant agreements, will require
disbursements. Unliquidated grant obligations at September 30, 2011 and 2010 total
approximately $23,119,089 and $24,178,691, respectively.

NOTE 8. UNDELIVERED ORDERS AT THE END OF THE PERIOD

Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting, states that
the amount of budgetary resources obligated for undelivered orders at the end of the period
should be disclosed. For the fiscal years ended September 30, 2011 and 2010, undelivered orders
amounted to $28,842,399 and $30,825,858 respectively.




                                               40
NOTE 9. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

Intragovernmental costs and intragovernmental exchange revenue represent goods and services
exchange transactions made between two reporting entities within the Federal government, and
are in contrast to those with non-federal entities (the public). Such costs and revenue are
summarized as follows:

                                                              2011                     2010
Foreign Grant Program
  Intragovernmental Costs                            $         3,648,063       $        3,679,758
  Public Costs                                                25,177,971               26,214,404
   Total Program Costs                                        28,826,034               29,894,162
   Total Intragovernmental Earned Revenue                        (99,814)                       -
Total Net Cost                                        $       28,726,220      $        29,894,162

NOTE 10. IMPUTED FINANCING SOURCES

The IAF recognizes as imputed financing the amount of accrued pension and post-retirement
benefit expenses for current employees. The assets and liabilities associated with such benefits
are the responsibility of the administering agency, OPM. For the fiscal years ended September
30, 2011 and 2010, imputed financing was $297,408 and $384,695, respectively.

NOTE 11. FINANCING SOURCES - SPTF

The Reconciliation of Net Cost of Operations to Budget Note reconciles the financial Net Cost of
Operations with the Statement of Budgetary Resources. The IAF reports SPTF funds obtained
from the IDB as offsetting collections earned. The IAF had no exchange revenue in fiscal year
2011 or 2010. For fiscal year 2011 and 2010, the IAF received $7,499,449 and $4,615,000
respectively, from the IDB, which was reported on its SF-133 as funds received from SPTF
collections.

                                                                2011                    2010
SPTF Cumulative Results:
 SPTF Beginning Balance                                   $     13,204,130         $   15,630,157
 SPTF Funds Received                                             7,499,449              4,615,000
 SPTF Funds Expended                                            (6,087,860)            (7,041,027)
SPTF Fund Carry Forward                                   $     14,615,719         $   13,204,130
Donations Cumulative Results:
 Donations Beginning Balance                                            33                      -
 Donations Received                                                  5,450                  2,000
 Donations Expended                                                 (4,428)                (1,967)
Donations Carry Forward                                   $          1,055         $           33
Total SPTF and Donations                                  $     14,616,774         $   13,204,163
 Cumulative Results of Operations – All Other Funds               (405,050)              (388,880)
Total Cumulative Results of Operations                    $     14,211,724         $   12,815,283




                                              41
NOTE 12. BUDGETARY RESOURCE COMPARISONS TO THE BUDGET OF THE
UNITED STATES GOVERNMENT

The President’s Budget that will include FY11 actual budgetary execution information has not yet
been published. The President’s Budget is scheduled for publication in February 2012 and can be
found at the OMB Web site: http://www.whitehouse.gov/omb/. The 2012 Budget of the United
States Government, with the "Actual" column completed for 2010, has been reconciled to the
Statement of Budgetary Resources and there were no material differences.

NOTE 13. LEASES

Operating Leases

The IAF occupies office space under a lease agreement that is accounted for as an operating
lease. The current lease term began on May 1, 2002 and expires on April 30, 2012. Lease
payments are increased annually based on the IAF's proportionate share of the building's
operating expenses and real estate taxes. Operating expenses are increased based on an estimated
CPI increase of 3% annually. The current agreement allowed the IAF an abatement credit in lieu
of a build-out allowance, deducted from the monthly rent for the first 26 months of the lease. The
total operating lease expense as of September 30, 2011 and 2010 were $762,694 and $695,825,
respectively. With the end of the current lease on 4/30/12, the IAF has a new lease agreement in
place. The new lease term will begin on May 1, 2012 and expire on April 30, 2017. The new
agreement will allow the IAF an abatement credit in lieu of a build-out allowance, deducted from
the monthly rent for the first 7 months of the lease.

Below is a schedule of future payments for the term of both leases.

Fiscal Year                                                                          Office Space
2012                                                                             $          435,565
2013                                                                                        539,488
2014                                                                                        623,096
2015                                                                                        627,480
2016                                                                                        631,996
2017                                                                                        370,227
Total Future Payments                                                            $         3,227,852


The operating lease amount does not include estimated payments for leases with annual renewal
options.

NOTE 14. EARMARKED FUNDS

The IAF has earmarked funds that fall into the following categories: Social Progress Trust Fund
(SPTF) and Gift Fund. Both funds are used to finance part of the IAF's grant program and remain
available until funds are exhausted.

Transactions are recorded on an accrual accounting basis and a budgetary basis. Under the
accrual method, revenues are recognized when earned and expenses are recognized when
liabilities are incurred, without regard to receipt or payment of cash. Budgetary accounting
measures the appropriations and consumption of budget authority and other budgetary resources
and facilitates compliance with legal constraints and controls over use of Federal funds.
                                               42
Schedule of Earmarked Funds as of September 30, 2011:

                                                                                                       Total
                                                 S ocial Progress                                    Earmarked
                                                    Trust Fund              Gift Fund                  Funds
Balance S heet
Assets:
Fund Balance with Treasury                       $ 14,122,705       $              1,055         $    14,123,760
Other Assets                                             493,014                         -               493,014
 Total Assets                                    $ 14,615,719       $              1,055         $    14,616,774
Liabilities and Net Position:
Cumulative Results of Operations                      14,615,719                   1,055              14,616,774
 Total Liabilities and Net Position              $ 14,615,719       $              1,055         $    14,616,774
S tatement of Net Cost
Program Costs                                    $     6,087,860    $              4,428         $     6,092,288
Less: Earned Revenues                                 (7,499,449)                 (5,450)              (7,504,899)
Net Cost of Operations                           $    (1,411,589)   $             (1,022) $            (1,412,611)
S tatement of Changes in Net Position
Net Position Beginning of Period                 $ 13,204,130       $                   33       $    13,204,163
Net Cost of Operations                                (1,411,589)                 (1,022)              (1,412,611)
Net Position End of Period                       $ 14,615,719       $              1,055         $    14,616,774


Schedule of Earmarked Funds as of September 30, 2010:

                                                                                                       Total
                                                 S ocial Progress                                    Earmarked
                                                    Trust Fund              Gift Fund                  Funds
Balance S heet
Assets:
Fund Balance with Treasury                        $ 12,210,578      $                   33       $     12,210,611
Other Assets                                             993,552                             -            993,552
 Total Assets                                     $ 13,204,130      $                   33       $     13,204,163
Liabilities and Net Position:
Cumulative Results of Operations                      13,204,130                        33             13,204,163
 Total Liabilities and Net Position               $ 13,204,130      $                   33       $     13,204,163
S tatement of Net Cost
Program Costs                                     $     7,041,027   $               1,967        $      7,042,994
Less: Earned Revenues                                 (4,615,000)                  (2,000)              (4,617,000)
Net Cost of Operations                            $     2,426,027       $               (33) $          2,425,994
S tatement of Changes in Net Position
Net Position Beginning of Period                  $ 15,630,157          $                    -   $     15,630,157
Net Cost of Operations                                  2,426,027                       (33)            2,425,994
Net Position End of Period                        $ 13,204,130      $                   33       $     13,204,163




                                            43
NOTE 15. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

Obligations incurred and reported in the Statement of Budgetary Resources in 2011 and 2010
consisted of the following:

                                                              2011                        2010
Direct Obligations, Category A                           $     8,469,378             $     8,695,723
Direct Obligations, Category B                                18,557,504                  21,543,481
Reimbursable Obligations, Category B                             850,000                     850,000
Total Obligations Incurred                               $    27,876,882              $   31,089,204

Category A apportionments distribute budgetary resources by fiscal quarters.

Category B apportionments typically distribute budgetary resources by activities, projects, objects
or a combination of these categories.

NOTE 16. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

IAF has reconciled its budgetary obligations and non-budgetary resources available to its net cost
of operations.

                                                                           2011               2010
Resources Used to Finance Activities
Budgetary Resources Obligated
 Obligations Incurred                                                 $ 27,876,882        $ 31,089,204
 Spending Authority from Offsetting Collections and Recoveries          (8,852,782)         (6,863,805)
 Obligations Net of Offsetting Collections and Recoveries             $ 19,024,100        $ 24,225,399
Other Resources
 Donations and Forfeitures of Property                                $      5,450        $      2,000
 Imputed Financing from Costs Absorbed by Others                           297,408             384,695
 Net Other Resources Used to Finance Activities                       $    302,858        $    386,695
Total Resources Used to Finance Activities                            $ 19,326,958        $ 24,612,094
Total Resources Used to Finance Items Not Part of the Net Cost of
Operations                                                               9,383,093           5,272,021
Total Resources Used to Finance the Net Cost of Operations            $ 28,710,051        $ 29,884,115
Total Components of Net Cost of Operations That will not Require or
Generate Resources in the Current Period                                    16,169              10,047
Net Cost of Operations                                                $ 28,726,220        $ 29,894,162




                                                 44
